<html>
<title> - CARBON MONOXIDE POISONING: SOUNDING THE ALARM ON A SILENT KILLER</title>
<body><pre>[Senate Hearing 111-520]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-520
 
                      CARBON MONOXIDE POISONING: 
                 SOUNDING THE ALARM ON A SILENT KILLER 

=======================================================================

                                HEARING

                               before the

   SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, AND INSURANCE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 17, 2009

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

54-920 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 


















       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

            JOHN D. ROCKEFELLER IV, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             KAY BAILEY HUTCHISON, Texas, 
JOHN F. KERRY, Massachusetts             Ranking
BYRON L. DORGAN, North Dakota        OLYMPIA J. SNOWE, Maine
BARBARA BOXER, California            JOHN ENSIGN, Nevada
BILL NELSON, Florida                 JIM DeMINT, South Carolina
MARIA CANTWELL, Washington           JOHN THUNE, South Dakota
FRANK R. LAUTENBERG, New Jersey      ROGER F. WICKER, Mississippi
MARK PRYOR, Arkansas                 GEORGE S. LeMIEUX, Florida
CLAIRE McCASKILL, Missouri           JOHNNY ISAKSON, Georgia
AMY KLOBUCHAR, Minnesota             DAVID VITTER, Louisiana
TOM UDALL, New Mexico                SAM BROWNBACK, Kansas
MARK WARNER, Virginia                MIKE JOHANNS, Nebraska
MARK BEGICH, Alaska
                    Ellen L. Doneski, Staff Director
                   James Reid, Deputy Staff Director
                   Bruce H. Andrews, General Counsel
             Ann Begeman, Acting Republican Staff Director
              Brian M. Hendricks, Republican Chief Counsel
                                 ------                                

   SUBCOMMITTEE ON CONSUMER PROTECTION, PRODUCT SAFETY, AND INSURANCE

MARK PRYOR, Arkansas, Chairman       ROGER F. WICKER, Mississippi, 
BYRON L. DORGAN, North Dakota            Ranking
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 JIM DeMINT, South Carolina
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota             JOHNNY ISAKSON, Georgia
TOM UDALL, New Mexico                DAVID VITTER, Louisiana

















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 17, 2009................................     1
Statement of Senator Pryor.......................................     1
Statement of Senator Klobuchar...................................     2

                               Witnesses

Alan Korn, Executive Director, Safe Kids USA.....................     4
    Prepared statement...........................................     6
Cheryl Burt of Rochester, Minnesota..............................     9
    Prepared statement...........................................    12
John Andres, Director of Engineering, Kidde Residential and 
  Commercial.....................................................    13
    Prepared statement...........................................    15
Hon. Kelvin J. Cochran, Administrator, United States Fire 
  Administration, Federal Emergency Management Agency, Department 
  of Homeland Security...........................................    16
    Prepared statement...........................................    18

                                Appendix

The Home Safety Council, prepared statement......................    27
Letter, dated December 17, 2009 to Hon. Mark Pryor and Hon. Roger 
  Wicker from Evan R. Gaddis, President and CEO--National 
  Electrical Manufacturers Association; Richard W. Chace, Chief 
  Executive Officer--Security Industry Association; and Michael 
  A. Miller, President--Electronic Security Association..........    28
Response to written questions submitted to Alan Korn by:
    Hon. Mark Pryor..............................................    29
    Hon. Tom Udall...............................................    30
Response to written questions submitted to Cheryl Burt by:
    Hon. Mark Pryor..............................................    31
Response to written questions submitted to John Andres by:
    Hon. Mark Pryor..............................................    31
Response to written question submitted to Hon. Kelvin J. Cochran 
  by:
    Hon. Mark Pryor..............................................    32
    Hon. Tom Udall...............................................    32


                      CARBON MONOXIDE POISONING: 
                 SOUNDING THE ALARM ON A SILENT KILLER

                              ----------                              


                      THURSDAY, DECEMBER 17, 2009

                               U.S. Senate,
      Subcommittee on Consumer Protection, Product 
                             Safety, and Insurance,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:33 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Mark Pryor, 
Chairman of the Subcommittee, presiding.

             OPENING STATEMENT OF HON. MARK PRYOR, 
                   U.S. SENATOR FROM ARKANSAS

    Senator Pryor. I would like to call this hearing to order.
    Today's subcommittee hearing will consider, the risk of 
carbon monoxide poisoning and steps consumers can take to 
protect themselves from exposure. As the Chairman of the 
Consumer Protection Subcommittee, I believe this is an 
important consumer protection issue that requires this 
Committee's scrutiny and collaboration.
    Where consumers are being harmed by safety risk or product 
defects, my colleagues and I work hard to protect them. Senator 
Klobuchar, who's been a leader in the area of carbon monoxide 
poisoning prevention, has introduced S. 1216, the Residential 
Carbon Monoxide Safety Act. Today we will consider her 
legislation. And I commend her for her excellent efforts in 
this area, and I look forward to this afternoon's discussion. 
And I want the witnesses and the audience to know that we're 
here because she requested this hearing and it's part of her 
leadership on this issue.
    We're joined by an expert panel of witnesses who have 
agreed to testify before us. They will share with us their 
insights regarding carbon monoxide poisoning prevention. I 
welcome them, and I thank them for their presence and 
contributions here today.
    Our witnesses will present their remarks on one panel, and 
they're already set up. And each of you will have 5 minutes to 
deliver your oral statement, and then we will have an 
opportunity to ask questions and follow up on some of your 
opening statements. Your written statements will also be 
included in the record, so if you want to abbreviate your 
testimony, that's up to you.
    Carbon monoxide is known as the ``silent killer,'' because 
it is elusive. We can neither see it, nor taste it, nor smell 
it. And each year in the United States, approximately 500 
people die, and there are 4,000 hospitalizations that occur as 
a result of it, and about 20,000 emergency department visits 
from this every year.
    I look forward to learning more about this issue, and I 
look forward to the witnesses' testimony.
    But, first, Senator Klobuchar.

               STATEMENT OF HON. AMY KLOBUCHAR, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Klobuchar. Well, thank you very much, Senator 
Pryor. And thank you for your leadership for this Committee, 
really. You have always been there on the front line. I 
remember the pool safety bill, and there was a family--maybe 
Ms. Burt remembers this--from Minnesota, that, tragically, lost 
a little girl. Senator Pryor was right there, and got that bill 
done. And I'm hopeful the same thing will happen with the 
legislation that I've introduced here.
    I first wanted to recognize Cheryl Burt. I was thinking, as 
Senator Pryor said, asking to have this hearing, quite a day to 
do it. Most people might have thought we'd be out of session, 
but I just had hope we'd still be here. And I'm glad that it 
all worked out for everyone.
    But, when I think about what motivates me to get this thing 
done and keep moving with this legislation, it would be someone 
like Cheryl Burt. She's from Rochester, Minnesota, the home of 
the Mayo Clinic, and she's been a leading and tireless advocate 
for carbon monoxide awareness.
    She, tragically, lost two of her sons to carbon monoxide 
poisoning 14 years ago. Cheryl's here today to share with us 
her important story and to help educate us on the importance of 
carbon monoxide alarms in the home. So, I first wanted to 
welcome her, and thank her for coming, along with the other 
witnesses.
    In my State of Minnesota and across large sections of this 
country, winter temperatures arrived a few weeks ago. And 
they'll likely stick around for a while. That means our home 
furnaces, fireplaces, and chimneys will be getting a good 
workout over the next several months. And with that comes a 
danger: the potential for accidental carbon monoxide poisoning.
    Known as the ``silent killer,'' carbon monoxide is an 
odorless, colorless, poisonous gas produced by burning fuel 
like propane, kerosene, natural gas, gasoline, and charcoal. 
These deadly fumes can leak from family furnaces, from water 
heaters, or from stoves. They can be trapped inside by a 
blocked chimney or a flue. Other sources include, running a car 
engine in an attached garage, burning charcoal in the house, or 
operating a gas-powered generator in a confined place.
    When inhaled, carbon monoxide is quickly absorbed into the 
blood, and it becomes deadly when it replaces the blood's 
oxygen. Early symptoms of this kind of poisoning are sometimes 
confused with the flu, with symptoms like headache, nausea, 
fatigue, and dizziness.
    About 500 people die every year in America due to 
accidental carbon monoxide poisoning. Another 150,000 people 
end up in the emergency room--150,000 a year. Children are 
especially vulnerable. According to the Centers for Disease 
Control, 92 Minnesotans died of accidental carbon monoxide 
poisoning between 2002 and 2006. This need not happen.
    One of the simplest and most effective defenses against 
this insidious killer is the installation of a carbon monoxide 
alarm in the home. You don't just take my word for it, the 
American Red Cross, the Mayo Clinic, and American Lung 
Association all recommend the installation of carbon monoxide 
alarms in the home.
    In Minnesota, this isn't just good advice, it's the law. 
Since 2008, all homes in our State are required to have working 
carbon monoxide alarms. Nationally, however, it's estimated 
that fewer than 30 percent of homes actually have them. And so, 
we're here today to think about ways to get more families to 
install carbon monoxide detectors in their homes.
    We're also here today to talk about legislation that I've 
introduced, along with Senator Bill Nelson, which would require 
the U.S. Consumer Product Safety Commission to enforce stronger 
standards to protect people against the deadly dangers of 
carbon monoxide. It's called the ``Residential Carbon Monoxide 
Poisoning Prevention Act.'' It includes three key provisions:
    First, it would strengthen the safety standards for carbon 
monoxide alarms. Currently the Consumer Product Safety 
Commission has set voluntary safety standards for carbon 
monoxide alarms which are underwritten--which are written by 
Underwriter Laboratories. The legislation would make these 
safety standards mandatory for all carbon monoxide alarms sold 
in the United States. This is especially important in my State, 
because substandard alarms tend to fail in low humidity areas, 
like Minnesota's cold, dry winters.
    Second, this legislation would require the Consumer Product 
Safety Commission to determine whether portable generators sold 
in the U.S. can be equipped with safety mechanisms that detect 
the level of carbon monoxide in the surrounding area, and then 
automatically turn off.
    In recent years, carbon monoxide deaths caused by 
generators have been on the increase. It typically happens 
after natural disasters, like hurricanes--that's why Senator 
Nelson is so interested in this legislation in Florida--or ice 
storms, something I might be more interested in, when there's a 
power outage and people are tempted to use generators in their 
homes.
    Last year, events tragically drove this point home. In 
2008, two men and a boy died in a Minneapolis home from carbon 
monoxide poisoning due to the use of a portable generator in 
the home.
    And finally, the bill authorizes the CPSC to provide grants 
to States with laws on the books that promote the inclusion of 
carbon monoxide detectors in apartment buildings and new homes.
    You know, when someone dies from accidental carbon monoxide 
poisoning, it's not just a private tragedy; it's a public 
tragedy, too, because we know that so often we could have 
prevented these deaths with the right safeguards.
    When I was a prosecutor, I was always frustrated by--that 
by the time a case got to our office, the damage had already 
been done, the crime had already been committed. I knew that 
the best way to protect public safety was to prevent the crime 
in the first place.
    And on this committee, we're in the position to protect 
families and prevent unnecessary accidents from ever happening 
at all. That's what we want to do with this carbon monoxide 
legislation.
    And so, we are here today to sound the alarm on a ``silent 
killer.'' That is carbon monoxide poisoning.
    I look forward to hearing from our witnesses.
    Thank you, Senator Pryor.
    Senator Pryor. Thank you.
    And we're going to--what I'm going to do is just briefly 
introduce all four witnesses on the panel, and then just let 
you give your testimony. I'd love to do it--keep it to 5 
minutes, if at all possible.
    First, we have Alan Korn. He's the Executive Director and 
General Counsel for Safe Kids USA. Then we have Cheryl Burt, of 
Rochester, Minnesota. Then we have--is it John Andres?
    Mr. Andres. Andres.
    Senator Pryor. Yes. He is the Director of Engineering, 
Kidde Residential and Commercial Division. And then we have 
Kelvin Cochran, the U.S. Fire Administrator, U.S. Fire 
Administration, Department of Homeland Security.
    So, I want to welcome all of you all to the Subcommittee 
today. Thank you for your time. I know it's late in December, 
and you probably have a lot of other things you could be doing 
today. But, thank you very much for your preparation and, for 
those of you who traveled--those of you--we appreciate you very 
much.
    So, Mr. Korn, do you want to lead off?

                    STATEMENT OF ALAN KORN, 
               EXECUTIVE DIRECTOR, SAFE KIDS USA

    Mr. Korn. Chairman Pryor and Senator Klobuchar, thank you 
for giving me the opportunity to testify here today on such an 
important injury prevention topic--carbon monoxide poisoning--
one that, in our view, gets very little attention. So, we very 
much appreciate the opportunity to increase the discourse here 
today.
    This subcommittee knows very well that Safe Kids USA spends 
just about every waking moment working to protect children from 
their number-one killer: unintentional injury. This 
subcommittee, and, quite frankly, Senator Pryor and Senator 
Klobuchar, have been very helpful in that effort throughout the 
years. We know children and children's safety are in good hands 
with these two Members of Congress. That help continues here 
today.
    The vast majority of Americans don't realize that the 
number-one killer of children is injury. It's not cancer. It's 
not obesity. It's not violence. It's not abduction. It's car 
crashes, drownings, fire and burns, and yes, poisoning, like 
carbon monoxide. So, as far as I know, this is the first time 
Congress has ever had a fully dedicated hearing to CO 
poisoning, and we think it's about time. So, thank you very 
much, Senator Klobuchar and Senator Pryor.
    I have a portion in my testimony where I kind of talk about 
how it happens, and what the results are. But, Senator 
Klobuchar, I think you addressed that pretty clearly in your 
testimony. I'll do it by way of making two analogies:
    One is, this is not like smoke. Smoke, at least arguably, 
you can see in the home. You can taste it. You can smell it. 
There's at least an opportunity for you to react to it and get 
out of the home. By the way, I'm not making a case for not 
having smoke alarms; they're very, very important. But, carbon 
monoxide, you cannot see, you cannot smell, so that makes 
detection all the more important.
    And I'm reminded of a story, along with the Burt's story, 
of a family of four who died in Maryland. They found the father 
dead in his bathroom on the floor, with shaving cream on his 
face. That's how quickly it happened to him. Two children died, 
and the mother, and, Senators, they found the dog dead on the 
mat. There was no opportunity to detect that this was 
happening, because there was no carbon monoxide detector in the 
home. They had an attached garage, and they left a car running.
    I'd be remiss if I didn't talk, just briefly, about a 
couple prevention opportunities here and what--how we think 
these things can be prevented. Then I'll talk more specifically 
about your piece of legislation, Senator.
    Number one, and the most important thing--in fact, the two 
most important things--are, if you have a source of combustible 
fuel in the home, you'd better darn well have a carbon monoxide 
detector in your home. I do, on each level of my home, outside 
my sleeping area, and in the living areas of my home. They're 
not expensive. This is a safety device that's not used enough. 
It's not like smoke alarms, which are in the vast majority of 
homes. These are still highly underutilized. Your legislation, 
Senator, is going to help get these into homes. I'll talk about 
that in a second.
    The second concept in prevention is to prevent it from 
happening in the first place; that is, the CO entering the 
home. So, check your gas appliances, get them installed by 
professionals, per the manufacturer's instructions--quite 
frankly, something I should do better--every year, getting your 
gas appliances checked.
    A couple other things, and then I'll talk briefly about 
your legislation.
    Never, ever, ever use your gas ranges or your ovens to heat 
your home. That happens. That's a source of carbon monoxide. 
And don't leave your cars running near the home or in an 
attached garage. You talked about portable generators. It seems 
that far too many people use their generators inside their 
home, an opportunity for CO to build up in the home, and that's 
when the deaths and injuries happen, to the tune of about 500 a 
year across the entire injury risk area.
    Of course, the Residential Carbon Monoxide Prevention Act, 
if passed, is going to help us greatly in these prevention 
efforts. And we very much appreciate your leadership on this.
    The bill does much, but I'm going to talk about two things 
on it:
    One is the State Incentive Grant Program. If passed, it 
would establish an Incentive Grant Program, as you said, to 
encourage States to pass CO laws that require approved alarms 
be installed in commercial dwellings and construction--new 
construction. Congress has used incentive grants many, many 
times before. We think the philosophy is a sound one for 
booster seats, .08, pool safety legislation, which both of you 
were supportive of. So, this is quite consistent with that 
philosophy.
    I would make one change to the bill, and I'll work with 
your staff on that. Right now it applies to just rental 
properties, new construction and it just applies to commercial 
residential properties. Existing, older homes are just as 
important; in fact, I believe, even more important, because 
they've got the older gas appliances--I think you're going to 
hear from the Burts on that matter, particularly--and they have 
the tendency to be faulty and fall into disrepair. So, for the 
existing homes, also, like we do for pools, like we do for 
booster seats--we don't require booster seats in just new cars, 
it's all cars--so, we would like you to consider that change.
    And then, there's a second concept here, with--which is 
your mandatory standard--I'm running out of time--we're quite 
supportive of that. I'm happy to talk with you on why we think 
a mandatory standard serves a better and more vibrant 
prevention aspect than a voluntary standard.
    I will say, I'm not worried about these carbon monoxide 
detectors. This is a pretty good company, with a very good 
reputation. But, a mandatory standard helps us police the 
marketplace a little better, just in case we don't have the 
good companies and products out there.
    And one final point. When parents reply on this to serve a 
safety purpose, we believe it better serve that safety purpose. 
And it's nice to have a mandatory standard in place to make 
sure that it meets that goal so that we, who have these up in 
our homes--they behave and react the way their supposed to. We 
rely on it too greatly.
    So, thank you very much. Sorry to go over for just a few 
seconds.
    [The prepared statement of Mr. Korn follows:]

   Prepared Statement of Alan Korn, Executive Director, Safe Kids USA
    My name is Alan Korn, and I am the Executive Director of Safe Kids 
USA, a member country of Safe Kids Worldwide. Safe Kids thanks the 
Senate Commerce, Science, and Transportation Subcommittee on Consumer 
Protection, Product Safety, and Insurance, and in particular Senator 
Pryor and Senator Klobuchar, for holding a hearing on carbon monoxide 
(CO) poisoning prevention.
I. History of Safe Kids Worldwide
    Safe Kids Worldwide is the first and only international 
organization dedicated solely to addressing an often under recognized 
problem: More children ages 1-14 in the U.S. are being killed by what 
people call ``accidents'' (motor vehicle crashes, fires, drownings and 
other injuries) than by any other cause. Safe Kids Worldwide unites 
more than 600 coalitions in 19 countries, bringing together health and 
safety experts, educators, corporations, foundations, policymakers and 
volunteers to educate and protect families against the dangers of 
accidental injuries. Our USA network includes coalitions in all 50 
states and the District of Columbia.
    Founded in 1987 by the Children's National Medical Center and with 
support from Johnson & Johnson, Safe Kids Worldwide and its member 
country, Safe Kids USA, rely on developing injury prevention strategies 
that work in the real world--conducting public outreach and awareness 
campaigns, organizing and implementing hands-on grassroots events, and 
working to make injury prevention a public policy priority.
    The ongoing work of Safe Kids coalitions reaching out to local 
communities with injury prevention messages has contributed to a 
decline in the childhood unintentional injury death rate by 45 percent 
since 1987. However, with more children still dying from accidental 
injury than from cancer, heart disease and birth defects, Safe Kids 
Worldwide, Safe Kids USA and its fellow member countries remain 
committed to reducing unintentional injury by implementing prevention 
strategies and increasing public awareness of the problem and its 
solutions.
II. The Problem: Carbon Monoxide Poisoning
    Carbon monoxide is often called the ``silent killer'' since you 
cannot see it, smell it or taste it. This colorless, odorless gas is 
responsible for more than 500 unintentional deaths, approximately 
20,000 emergency department visits and more than 4,000 hospitalizations 
each year in the United States.
    Significantly, however, because symptoms of CO poisoning are 
similar to the flu, food poisonings and other common ailments, it is 
possible that many deaths have not been classified as CO poisoning and 
as a result, the number of fatalities, injuries and hospitalizations 
could be much higher than reported. CO is produced when any fuel is 
incompletely burned--potentially resulting in flu-like illnesses, such 
as dizziness, fatigue, headaches, nausea, and irregular breathing. 
Common fuel-burning appliances, like furnaces, stoves, fireplaces, 
clothes dryers, water heaters, and space heaters can produce lethal 
amounts of CO under certain conditions. Motor vehicles are another 
common source.
    Young children are especially vulnerable to the effects of CO. They 
are more susceptible to carbon monoxide and may experience symptoms 
sooner than a healthy adult. Due to their smaller bodies, children 
process CO differently than adults and may be more severely affected by 
carbon monoxide in their blood. According to the Centers for Disease 
Control and Prevention, from 1999-2004, 135 children ages 14 and under 
died from unintentional, non-fire related CO poisoning. Every year, 
more than 25 children ages 14 and under die from unintentional CO 
poisoning.
    Regardless of who is affected by CO, the treatment for CO is the 
same--oxygen therapy to treat symptoms and to lower carbon monoxide 
levels in the blood or the use of a full-body hyperbaric chamber that 
applies air pressure to remove the carbon monoxide faster. For those 
who survive a carbon monoxide poisoning, the long-term effects can be 
severe. Victims have reported memory loss, impaired motor skills and 
heart and lung problems. Often times, they deal with the CO injury for 
the rest of their lives.
III. The Solution: Installation of Carbon Monoxide Alarms and Other 
        Prevention Tips
A. Installing Carbon Monoxide Alarms Is a Must in Many Types of Homes
    The frustrating thing about CO poisonings is that many of these 
incidents can be prevented. The single most effective safety device 
available to reduce injuries and fatalities related to carbon monoxide 
poisonings is a CO alarm. A CO alarm in the home can give families an 
early warning when concentrations of carbon monoxide reach dangerous 
levels. It is estimated that CO alarms may prevent half of such related 
deaths from occurring. CO alarms are not only lifesaving devices, they 
are also cost effective. A CO alarm costs as little as $20, about the 
same as 2 movie tickets. Since many CO alarms should be replaced every 
7 years, this cost equals less than a penny a day. A very small price 
given the protection they provide.
    An improperly installed or poorly maintained CO alarm is often an 
ineffective alarm. Homeowners should always follow the manufacturer's 
instructions for installation. Safe Kids, the Consumer Product Safety 
Commission (CPSC) and other injury prevention organizations recommend 
that a CO alarm be installed in the hallway outside the bedrooms in 
each separate sleeping area of the home. Safe Kids also recommends that 
an alarm be installed on each level of the home to ensure proper 
detection coverage. To avoid false alarms, however, do not place the 
device in kitchens above fuel burning appliances. Hard-wired or plug in 
alarms should always have battery-back up and/or separate additional 
alarms that are battery operated just in case power is lost in the 
home. Check your CO alarm each month and replace the batteries every 
year when you change the time on your clocks each spring and fall.
B. Other Carbon Monoxide Poisoning Prevention Tips
    Safe Kids USA and its network have long worked to educate parents 
across the country on the need for rapid detection of carbon monoxide 
and have distributed CO alarms to countless families in need. Safe Kids 
knows, however, that installing CO alarms is not enough. All homeowners 
who live in residences with a source of combustible fuel or an attached 
garage, especially those homes with children, should always follow 
these additional, basic, prevention tips:

        1. Never, ever ignore a CO detector that is alarming. It is 
        warning you of the presence of a very dangerous poison. Do not 
        try and find the source of the CO. Immediately go outside to 
        fresh air and then call 9-1-1. Once outside, at your pre-
        determined, designated meeting place, do a head count to check 
        if all persons are accounted for. Do not go back inside until 
        you are given the ``all clear'' from the professionals;

        2. Never leave a running vehicle closely adjacent to a home or 
        in an attached garage even if the garage is open. Running cars 
        are a common source of CO poisoning;

        3. Make sure appliances are installed and operated according to 
        manufacturer's instructions and have heating systems like gas 
        furnaces, gas water heaters, gas ranges and ovens, gas or 
        kerosene space heaters and fireplaces professionally checked 
        and serviced annually to ensure proper operation. Make certain 
        that flues and chimneys are connected, in good condition and 
        not blocked;

        4. Never burn charcoal inside a home, garage, vehicle or tent. 
        The same goes for portable generators that are often used when 
        there is a power loss (i.e., like during a hurricane). 
        Generators should be used outside and placed at a safe distance 
        from the home; and

        5. Never use gas appliances such as ranges, ovens, or clothes 
        dryers to heat your home.
IV. Support for State Carbon Monoxide Alarm Laws
    Safe Kids knows that the installation of carbon monoxide alarms 
will go a long way to protecting children and their families from the 
dangers associated with CO. Safe Kids and our network of coalitions 
have strongly advocated for the passage of these state laws requiring 
residential CO alarms in order to properly protect entire families from 
this silent killer.
    Currently, 23 states and some local jurisdictions have passed 
legislation requiring the use of CO alarms in some types of residences 
(Alaska, Colorado, Connecticut, Florida, Georgia, Illinois, Maine, 
Maryland, Massachusetts, Michigan, Minnesota, Montana, New Hampshire, 
New Jersey, New York, North Carolina, Oregon, Rhode Island, Utah, 
Vermont, Washington, West Virginia and Wisconsin). These laws have 
proven to be effective. One study shows a dramatic correlation between 
CO alarm ordinances in cities and lower death rates from CO. In Los 
Angeles, where CO alarms are not mandatory, 15 percent of CO exposures 
were fatal. Compare this to Chicago, where CO alarms are required and 
only 0.4 percent of people exposed to carbon monoxide died.
    Safe Kids notes that the existing 23 laws mentioned above are a 
patchwork of requirements. Some states only require a CO alarm in newly 
constructed homes (Florida, Connecticut and Georgia). Others require a 
CO alarm installation when the home is sold or otherwise transferred or 
remodeled (New Jersey, Maine and Vermont). Some just apply to rental 
properties or hotels (North Carolina, Montana, Maine) or day care 
centers (Tennessee and Texas). Only six approach the safety coverage 
that we think is appropriate given the insidious nature of the poison 
(Illinois, Massachusetts, Minnesota, New York, Rhode Island and 
Wisconsin). Clearly, there are safety gaps in coverage around the 
country that need to be closed. Specifically, all dwellings, no matter 
what the type, should have a CO alarm if the dwelling relies on the 
combustion of fossil fuels for heat, power or if the home has an 
attached garage. Safe Kids hopes that the incentive grant program 
contained in the pending law as discussed and improved below, would 
motivate that comprehensive coverage around the country (See Section 
V(A) below).
V. Support for the Residential Carbon Monoxide Poisoning Prevention Act 
        (S. 1216 and H.R. 1296)
    Safe Kids USA strongly supports the Residential Carbon Monoxide 
Poisoning Prevention Act. (S. 1216 and H.R. 1296). We applaud the 
leadership of the legislation's sponsors, Senator Amy Klobuchar, 
Senator Ben Nelson and Representative Jim Matheson in the House of 
Representatives, for the introduction of this critical safety measure 
which will help prevent the potentially deadly effects of CO poisoning.
A. State Incentive Grant Program for CO Alarms
    If passed, the Residential Carbon Monoxide Poisoning Prevention Act 
would establish an incentive grant program to encourage states to pass 
CO alarm laws that require approved CO alarms be installed in all 
commercial dwelling units and all new dwelling unit construction. We 
know that congressional incentive grants to encourage states to pass 
safety legislation are not a new concept and have worked in the past. 
Congress has used this mechanism to promote state transportation safety 
laws as well as pool safety laws. The passage of the Residential Carbon 
Monoxide Poisoning Prevention Act could do for CO prevention what 
incentive grants have done for booster seat child occupant protection 
laws, primary enforcement safety belt laws, .08 drunk driving laws and 
open container prohibition laws. In each of these cases, incentive 
grants motivated states to do the right thing. Today, for instance, all 
but three states (South Dakota, Florida and Arizona) have some form of 
a booster seat law and many of these states were motivated by the 
Federal attention.
    Safe Kids does note, however, that the legislation as drafted and 
as mentioned above only applies to commercial dwellings and new 
construction dwellings. The law does not promote, through the incentive 
grant program, states to require alarms in single family, existing 
dwellings. Safe Kids believes that CO alarms obviously serve a very 
important role in these structures also. In fact, it is more important 
that these dwellings have these safety devices given that most CO 
poisonings happen in older, existing homes that have older gas 
appliances that are more likely to malfunction or fall in disrepair. 
This Subcommittee and the bill's sponsors should consider adding a 
requirement that conditions the awarded grant on not only installing CO 
alarms in commercial dwellings and new construction, but also existing, 
single family homes. Safety will be well served by this addition.
B. Mandatory Safety Standard for Carbon Monoxide Alarms
    The legislation would also ensure the quality of CO alarms 
available for sale in the marketplace by requiring a mandatory safety 
standard for these devices. Presently, CO alarms sold are only subject 
to a voluntary standard. There is no requirement that they meet basic 
safety characteristics. We believe they should. Parents (and all 
homeowners for that matter) rely on these devices to serve a critical 
safety purpose--to alarm before CO amounts reach dangerous levels. 
Given this special reliance, consumers should be completely confident 
that they work as purported. A mandatory standard, with its 
accompanying and heightened government policing, will supply that 
confidence.
    Congress, the Senate Commerce Committee and Federal agencies of 
jurisdiction have agreed with and implemented this philosophy on many 
occasions. Products of special characteristics or that serve a safety 
purpose that, in the past, have only been subject to a voluntary 
standard are now (or soon will be) subject to a mandatory standard. 
Those products include, bike helmets (pursuant to the Consumer Product 
Safety Act), pool and spa drain covers (pursuant to the Virginia Graeme 
Baker Pool & Spa Safety Act), and toys, ATVs, cribs, baby bath seats, 
play yards, and bassinets (pursuant to the Consumer Product Safety 
Improvement Act). Carbon monoxide alarms share these special 
characteristics and, therefore, should be subject to a mandatory 
standard.
    Significantly, Congress has recently addressed and supported this 
very concept. In the recently passed CPSC Reauthorization legislation, 
the Conferees on that law stated:

        The Conferees support carbon monoxide devices being installed 
        in all residential dwelling units and support the efforts of 
        individual states that have enacted legislation requiring the 
        installation of carbon monoxide devices in homes and other 
        dwelling places. The Conferees believe the CPSC should consider 
        the adoption of the American national Standards Institute/
        Underwriters Laboratories standards ANSI/UL 2034 . . . for 
        carbon monoxide devices sold in the United States. . . . 
        (Emphasis added.)

    The pending Residential Carbon Monoxide Poisoning Prevention Act is 
completely consistent with that past Congressional directive. Passage 
of the law will accomplish it.
VI. Conclusion
    As carbon monoxide-related injuries and deaths can easily be 
prevented, parents, caregivers, state and Federal policymakers, and 
communities must make this issue a priority. Safe Kids commends Senator 
Klobuchar and Senator Nelson, along with the other members of this 
subcommittee, for promoting awareness of this hidden hazard to the 
public. We look forward to working with you on any efforts designed to 
protect children from poisoning-related injury and death.

    Senator Pryor. Thank you.
    Ms. Burt.

        STATEMENT OF CHERYL BURT OF ROCHESTER, MINNESOTA

    Ms. Burt. Good afternoon. My name is Cheryl Burt, and I'm 
from Rochester, Minnesota. And thank you, Chairman Pryor and 
members of the Committee, for giving me the opportunity to talk 
about carbon monoxide poisoning. And I'd like to thank Senator 
Klobuchar for inviting me to tell my story. I commend her and 
Senator Nelson for their commitment to take the issue of CO 
awareness to a national level.
    When you have a fire in your home, you know it. You can see 
the smoke, you can smell the fumes, feel the heat. And since 
smoke alarms have been required in homes for many years, 
chances are you will also hear that smoke alarm sound.
    When you have carbon monoxide in your home, you cannot see 
it. You cannot taste it. You cannot smell it. You will feel its 
effects--a headache, nausea, dizziness--but you don't realize 
that you're being poisoned. You don't comprehend the danger, 
and, if you do, you are completely helpless to take action to 
save yourself or your family. I know. Fourteen years ago this 
January, carbon monoxide poisoned my family and killed two of 
my three children.
    Let me start by saying that I lived by life's safety rules. 
I had smoke alarms in my home. I used safety gates, child 
locks, and I thought my home was safe. And I was wrong.
    On this particular evening, I progressively got sicker and 
sicker with what I thought was a family-sized case of the flu. 
In fact, I had brought my sons to the doctor each week for 
about 2 months, with different symptoms, and I knew something 
was wrong. But, everyone, including the doctors, thought I was 
overreacting.
    I now know that by the time we reached the doctors, my sons 
had received enough fresh air that--the CO was causing them to 
be sick, and it had dissipated. But, back then I never thought 
that we were being poisoned. By the time I realized something 
was terribly wrong, I didn't have any idea just how terribly 
wrong it really was. I didn't realize that my babies were 
dying, just rooms away from me. And I couldn't help them, or 
even help myself.
    A carbon monoxide alarm would have saved my children's 
lives, but I didn't have one in my home. And that night, my two 
youngest children died in their sleep from carbon monoxide 
poisoning due to a malfunctioning furnace. The rest of my 
family, while we were severely injured, we managed to survive 
this horrible experience, only to wake up the next afternoon in 
the hospital with our lives tragically changed forever.
    I was asked to give testimony today, to give reasons why I 
support S. 1216, which would give States that passed CO alarm 
laws incentives to raise awareness, and would require a 
mandatory standard for all CO alarms in the U.S. I can give you 
three very good, very precious reasons for my support: Nicholas 
Todd Burt, Zachary Todd Burt, and Ryan Todd Burt.
    Excuse me.
    My little Nick turned 4 years old just 8 days before he 
died. In fact, we had been too sick to have his birthday party. 
I now know that our illness was really the beginning of carbon 
monoxide poisoning. But, at that time, we had decided to wait 
to celebrate, once we all got better. And that day never came. 
He's my reason number one.
    Reason number two is Zach. Zach was just shy of 16 months 
old when he died. I had woken up with Zach many, many times 
during that horrible night. And looking back, I should have 
realized that something was very, very wrong in my home. But, I 
was too sick, I was too poisoned to know. Instead it was Zach 
who I could not pick up to rock back to sleep. It was Zach who 
had trouble breathing. And the carbon monoxide just made me too 
weak to lift him up or to soothe him. Instead, I hung onto his 
crib rails, I was trying to keep myself standing, trying to 
keep from passing out, and I prayed he would just go back to 
sleep. I wanted to go to bed, myself. I listened to his labored 
breathing, and I was unable to comprehend the danger that my 
baby was in. I was unable to realize that he was dying. And now 
I listen to Zach's labored breathing every night in my sleep, 
and I would give anything to have that night back, to have been 
able to think clearly and save my baby.
    Reason number three is Ryan. Ryan was 5-and-a-half when we 
were poisoned. He barely survived. He's lived the past 14 years 
with the knowledge that, while he lived, his two brothers died 
right next to him. And that weighs on a 19-year-old's mind, 
believe me.
    What haunts me is that I could have prevented their deaths. 
As a mother, I felt I should have prevented it. I knew a little 
about carbon monoxide poisoning, and I knew about alarms. But, 
I didn't realize their lifesaving value. In fact, just a few 
weeks before this incident happened, I was shopping for the 
holidays, like we are now, with a friend, and we talked about 
buying alarms. And I opted to buy my son Nick another toy 
truck, instead, for his birthday. And now I have that truck, 
but I do not have my son.
    In the years since my children died, I have made it my 
mission to tell anyone who will listen about the need for CO 
alarms in our home. I've heard from families who have bought an 
alarm because of my story, and who later had that alarm sound, 
saving their lives or lives of their loved ones. These stories 
are why I continue to do my part to raise awareness.
    Knowledge is power. We warn about all sorts of health and 
safety issues--the flu, H1N1, proper seatbelt usage, other 
dangers--but, there is no national awareness about CO 
poisoning. And I won't rest until every family has a CO alarm 
in their home.
    This bill would help provide funding to educate people 
about carbon monoxide dangers and the need for those alarms.
    Thank you.
    This December 28 would have been Nick's 18th birthday. He 
would be graduating from high school. Zach would be 15, 
probably just getting his driver's permit. And I often think of 
how different my life would be today if I had a CO alarm in my 
home.
    I wish, with all my heart, that my State would have had a 
law in 1996, like the one that we have now, requiring all homes 
to have a CO alarm. I know, without a doubt, that I would have 
had one in my home. Had there been more public education at 
that time, I would've bought that alarm that day, instead of 
that toy truck, and I would not be speaking before you today. 
There would be no need.
    Instead of extreme sadness during this holiday time of 
year, I would be home, baking, enjoying the holiday season, and 
probably stressing about what to get my three active children 
for Christmas.
    I couldn't save my sons, but you have an opportunity to 
save someone else's family. I urge each of you to consider the 
safety of the citizens of your State, and help protect them by 
supporting S. 1216.
    Again, thanks for allowing me to speak before you. And 
thanks for all you do to protect the citizens of the United 
States.
    [The prepared statement of Ms. Burt follows:]

       Prepared Statement of Cheryl Burt of Rochester, Minnesota
    Good afternoon. My name is Cheryl Burt, and I am from Rochester, 
Minnesota. Thank you, Chairman Pryor and Members of the Committee for 
giving me the opportunity to talk to you about carbon monoxide 
poisoning. I'd also like to thank Senator Klobuchar for inviting me to 
tell my story. I commend her and Senator Nelson for their commitment to 
take the issue of C-O awareness to a national level.
    When you have a fire in your home, you know it. You can see smoke. 
Smell the fumes. Feel the heat. And since smoke alarms have been 
required in homes for many years, chances are you will also hear your 
smoke alarm sound.
    When you have carbon monoxide in your home, you cannot see it. You 
cannot taste it. You cannot smell it. You will feel its effects--a 
headache, nausea, dizziness--but you don't realize that you're being 
poisoned. You don't comprehend the danger, and if you do, you are 
completely helpless to take action to save yourself or your family.
    I know. Fourteen years ago, this January, carbon monoxide poisoned 
my family, and killed two of my three children.
    Let me start by saying that I lived by life's safety rules. I had 
smoke alarms in my home. I used safety gates and child locks, and I 
thought my home was safe. I was wrong.
    On this particular evening, I progressively got sicker and sicker, 
with what I thought was a family-sized case of the flu. In fact, I had 
brought my sons to the doctor each week for about 2 months because they 
kept having flu-like symptoms. My instinct told me something was wrong, 
but by the time we reached the doctor's office, my sons were better. 
Many, including the doctors, thought I was overreacting. I now know 
that they would feel better whenever I took them out of our CO-filled 
house and into fresh air. But back then, I never thought that we were 
being poisoned. By the time I did realize something was terribly wrong, 
I had no idea just how terribly wrong it was. I didn't realize that my 
babies were dying, just rooms away from me. I couldn't help them, or 
even help myself.
    A carbon monoxide alarm would have saved my children's lives. But I 
didn't have one in my home. So that night, my two youngest children 
died in their sleep from CO poisoning due to a malfunctioning furnace 
that was venting dangerous levels of CO throughout our home. The rest 
of my family, while severely injured, managed to survive this horrific 
experience. . . . only to wake up the next afternoon in the hospital, 
with our lives tragically changed forever.
    I was asked to give testimony today . . . to give reasons why I 
support S. 1216, which would give states that pass CO alarm laws 
incentives to raise awareness, and would require a mandatory standard 
for all CO alarms sold in the U.S.
    I can give you three very good, very precious reasons for my 
support: Nicholas Todd Burt, Zachary Todd Burt, and Ryan Todd Burt.
    My little Nick turned 4 years old just 8 days before his death. In 
fact, we had been too sick to have his birthday party. I now know that 
our illness was really the beginning of CO poisoning. But at the time, 
we decided to wait to celebrate once we all ``got better.'' That day 
never came. He is reason number one.
    Reason number two is Zach. Zach was just shy of 16 months old when 
he died. I was up with Zach many, many times during that horrible 
night. Looking back, I should have realized that something was very, 
very wrong in my home, but I was too sick, too poisoned to know. 
Instead, it was Zach who I could not pick up to rock back to sleep. It 
was Zach who was having trouble breathing. But, the carbon monoxide 
made me too weak to lift him or soothe him. Instead, I hung onto his 
crib rails, trying to keep myself standing, trying to keep from passing 
out, and I prayed that he would go back to sleep. I listened to his 
labored breath, but was unable to comprehend the danger my baby was in, 
unable to realize he that was dying.
    Now, I listen to Zach's labored breathing every night in my sleep. 
I would give anything to have that night back, to have been able to 
think clearly and save my baby.
    Reason number three is Ryan. He was five and a half when we were 
poisoned. He barely survived. He has lived the past 14 years with the 
knowledge that while he lived, his two brothers died right next to him.
    What haunts me is that I could have prevented their deaths. As a 
mother, I feel I should have prevented it. I knew a little about carbon 
monoxide alarms, but didn't realize their life-saving value. In fact, 
just a few weeks before this incident happened, I was shopping for the 
holidays with a friend, and we talked about buying alarms. I opted to 
buy my son another toy truck instead. Now I have the truck, but I don't 
have my son.
    In the years since my children died, I have made it my mission to 
tell anyone who will listen about the need for CO alarms in our homes. 
I've heard from families who bought an alarm because of my story, and 
who later had the alarm sound, saving their lives or their loved ones. 
These stories are why I continue to do my part to raise awareness.
    Knowledge is power. We warn about all sorts of health and safety 
issues: the flu, H1N1, proper seatbelt usage, and other dangers. But 
there is no national awareness about CO poisoning. I won't rest until 
every family has a CO alarm in their home. This bill would help provide 
funding to educate people about carbon monoxide dangers and the need 
for alarms.
    This December 28 would have been Nick's 18th birthday. He would be 
graduating from high school. Zach would be 15 and probably just getting 
his driver's permit. I often think of how different my life would be 
today had I had a CO alarm in my home. I wish with all my heart that my 
state would have had a law in 1996, like the one we have now, requiring 
all homes to have a CO alarm. I know without a doubt that I would have 
had one in my home. Had there been more public education at that time, 
I would have bought the alarm instead of that toy truck, and I would 
not be speaking before you today. Instead of extreme sadness during 
this time of year, I would be home baking, enjoying the holiday season, 
and probably stressing about what to get my three active boys for 
Christmas.
    I couldn't save my sons. But you have an opportunity to save 
someone else's family. I urge each of you to consider the safety of the 
citizens of your state and help protect them by supporting S. 1216. 
Again, thank you for allowing me to speak before you, and thank you for 
all you do to protect the citizens of the United States.

    Senator Klobuchar. Well, thank you very much, Cheryl. And 
we're just glad you're here. And I can't imagine--I don't think 
any of us can--what you went through, in having--have the 
memories of that night. But, you have the courage to share them 
with us, to make sure it doesn't happen to other children. So, 
thank you very much.
    Ms. Burt. Thank you.
    Senator Pryor. Yes, thank you for being here, and your 
courage and dedication.
    Mr. Andres.

   STATEMENT OF JOHN ANDRES, DIRECTOR OF ENGINEERING, KIDDE 
              RESIDENTIAL AND COMMERCIAL DIVISION

    Mr. Andres. Good afternoon. My name is John Andres. I'm the 
Director of Engineering for Kidde Residential and Commercial, 
located in Mebane, North Carolina.
    Thank you, Chairman Pryor and members of the Committee, for 
the opportunity to contribute to the discussion on the 
prevention of carbon monoxide poisoning in the United States. 
Kidde Residential and Commercial is part of UTC Fire & 
Security, a subsidiary of United Technologies Corporation.
    We are a proud leader in manufacturing life safety 
residential carbon monoxide alarms, and other life safety 
devices. We are committed to leading the industry in product 
safety and strict compliance to industry standards.
    Kidde supports enactment of S. 1216, the Residential Carbon 
Monoxide Safety Act. The Centers for Disease Control and 
Prevention reports, each year unintentional CO poisoning kills 
more than 400 Americans, requires 20,000 more to seek emergency 
medical attention, and causes more than 4,000 hospitalizations.
    S. 1216 is a strong first step toward preventing these 
tragedies. I commend Senators Klobuchar and Nelson for their 
continued leadership in alleviating this critical public health 
and safety issue.
    S. 1216 would focus much-needed Federal attention and 
resources toward ending accidental carbon monoxide poisoning. 
The bill's provisions to grant--to create a grant program 
supporting residential CO alarm laws are especially important. 
However, for the purposes of today's meetings, my comments will 
focus on describing the carbon monoxide hazard and how CO 
alarms operate to provide warning. I will also explain why it 
is necessary to establish mandatory Federal product safety 
standards, as laid out in S. 1216.
    Known as the ``silent killer,'' carbon monoxide is a 
byproduct of incomplete combustion. Potential sources are gas 
burning appliances, such as a furnace, water heater, stove, or 
grills, as well as other fuel burning devices, like fireplaces 
and engines. If such devices are improperly installed or 
malfunction, carbon monoxide can quickly build up inside a 
home. It easily mixes with the air and can quickly reach 
dangerous levels.
    Because one cannot see, taste, or smell carbon monoxide, 
the only safe way to detect the gas is to install working 
carbon monoxide alarms. Kidde and fire safety experts, such as 
the National Fire Protection Association, recommend placing CO 
alarms outside each bedroom and on every level of an occupied 
dwelling.
    When inhaled, carbon monoxide bonds with the blood's 
hemoglobin to form carboxyhemoglobin, which then deprives cells 
of oxygen. A CO alarm works by measuring CO concentrations over 
time to ensure that an alarm will sound before a person's blood 
level reaches 10 percent carboxyhemoglobin. Below this level, a 
normally healthy adult will not experience symptoms of CO 
poisoning.
    Consumers must have confidence that a properly installed 
and maintained CO alarm will warn them about the presence of 
dangerous CO levels and avoid nuisance alarms. This need for 
accuracy and reliability is the cornerstone of Underwriters 
Laboratories Standard 2034. The UL 2034, is an American 
National Standards Institute, or ANSI, accredited standard, 
that combines input from medical experts, approval bodies like 
UL, government agencies such as the CPSC, the National Fire 
Protection Association, users, and manufacturers in order to 
create a robust standard of performance.
    First published in 1992, UL 2034, has gone through several 
revisions, each of which is based on years of field test data 
intended to progressively strengthen the standard. Kidde 
supports the standard, because it specifically tests the 
product design for electrical safety, mechanical robustness, 
and the accuracy of CO detection over time and in different 
environmental conditions.
    UL 2034 is continually reviewed by a standards technical 
panel in order to keep pace with technological advances and 
past lessons learned. This revision process has led to the 
creation of CO sensing technology that is more advanced, 
stable, and reliable than past generations.
    To date, 23 States have enacted laws requiring CO alarms in 
residential dwellings, and, while most mandate that CO alarms 
meet UL 2034, there is no uniform requirement. More States will 
likely adopt similar legislation. In order to avoid confusion 
among regulators, consumers, and the industry, State lawmakers 
need a consistent standard to define what constitutes an 
approved alarm. Without such a reference, conflicting 
regulations arise that counter one of the CPSC's main 
objectives, which is to develop uniform safety standards for 
consumer products and to minimize conflicting State and local 
regulations.
    Again, I thank Committee members for their consideration of 
S. 1216 and for raising awareness about CO dangers. Senator 
Klobuchar, Senator Pryor, we look forward to working with you 
to pass this important legislation expeditiously.
    Thank you again for the opportunity to contribute to the 
discussion. I'll be glad to answer any questions you may have.
    [The prepared statement of Mr. Andres follows:]

      Prepared Statement of John Andres, Director of Engineering, 
                    Kidde Residential and Commercial
    Good afternoon, I am John Andres, Director of Engineering for 
Kidde's Residential and Commercial Division located in Mebane, North 
Carolina. Thank you, Chairman Pryor and members of the Committee, for 
the opportunity to contribute to the discussion on the prevention of 
carbon monoxide (CO) poisoning in the United States. Kidde Residential 
and Commercial Division is part of UTC Fire & Security, a subsidiary of 
United Technologies Corporation. We are a proud leader in manufacturing 
life-saving residential carbon monoxide alarms and other fire safety 
devices. We are committed to continuing to lead the industry in product 
safety and strict compliance to industry standards. We work closely 
with industry professionals, health, safety and fire experts, as well 
as nonprofit partners, to educate consumers on residential fire and 
carbon monoxide safety.
    Kidde supports enactment of S. 1216, ``The Residential Carbon 
Monoxide Safety Act.'' The Centers for Disease Control and Prevention 
reports that each year, unintentional CO poisoning kills more than 400 
Americans, requires 20,000 more to seek emergency medical attention, 
and causes more than 4,000 hospitalizations. S. 1216 is a strong first 
step toward preventing these tragedies. I commend Senators Klobuchar 
and Nelson for their continued leadership in elevating this critical 
public health and safety issue and for their willingness to explore 
increased consumer protections in the form of mandatory Federal product 
safety standards.
    S. 1216 would focus much-needed Federal attention and resources 
toward ending accidental carbon monoxide poisoning. The bill's 
provisions to create a grant program supporting residential CO alarm 
laws are especially important. However, for the purposes of today's 
hearing, my comments will focus on describing the carbon monoxide 
hazard and how CO alarms operate to provide warning, and on explaining 
why it is necessary to establish mandatory Federal product safety 
standards, as laid out in S. 1216.
    Known as the ``silent killer,'' carbon monoxide is a by-product of 
combustion from common household sources, including appliances such as 
a furnace, water heater, gas stove, or grill, as well as other fuel-
burning devices like a fireplace or engine. If such sources are 
improperly installed or malfunction, carbon monoxide can buildup inside 
a home. Carbon monoxide follows the air current through a home and, 
based on the source and the residence's ventilation system, can buildup 
either rapidly or slowly. Either can be deadly. Because one cannot see, 
taste or smell carbon monoxide, the only safe way to know that the gas 
has reached toxic levels is to install a sufficient number of working 
CO alarms. Kidde and fire safety experts such as the National Fire 
Protection Association recommend placing CO alarms outside each bedroom 
and on every level of an occupied dwelling.
    A CO alarm functions by calculating CO concentration over time to 
determine when an alarm will sound. This time-weighted ratio ensures 
that the higher the level of CO and the steeper the rate of increase, 
the earlier the alarm will sound. This equation takes into account the 
effect of CO on the human body. When inhaled, carbon monoxide bonds 
with hemoglobin in a person's bloodstream, and displaces the oxygen 
that cells need to function. By operating off the principle of the 
calculated percentage of carboxyhemoglobin, or CoHb, in the blood, the 
alarm sounds earlier in the presence of higher CO levels.
    CO alarms continuously monitor the home's environment. They are 
designed to sound before a healthy adult would feel the effects of CO 
poisoning. Consumers should have confidence that a properly installed 
and maintained CO alarm will warn them about the presence of dangerous 
CO levels, and avoid unwanted nuisance alarms that may cause them to 
doubt the alarm's accuracy. This need for accuracy and reliability is 
the cornerstone of Underwriters Laboratories (UL) 2034, the 
independent, third-party CO alarm standard to which U.S. carbon 
monoxide alarms are voluntarily tested and listed.
    UL 2034 is an American National Standards Institute--or ANSI-
recognized standard that combines input from medical experts, approval 
bodies like UL, government agencies such as the Consumer Product Safety 
Commission (CPSC), the National Fire Protection Association (NFPA), 
users and manufacturers in order to create a uniform requirement.
    First published in 1992, UL 2034 has gone through several 
revisions, each of which is based on years of field test data and is 
intended to strengthen the standard. Kidde supports this standard 
because it specifically addresses electrical safety, mechanical 
robustness and the accuracy of detection across different humidity 
levels and temperatures over a long period of time. It also verifies 
performance. UL 2034 is continually reviewed by a standards technical 
panel in order to keep pace with technological advances and past 
lessons learned. In accordance with ANSI rules, any member can 
recommend a revision in order to improve product performance or 
reliability. This revision process has led to the creation of CO 
sensing technology that is more advanced, stable, and reliable than 
prior generations.
    Currently, a manufacturer may voluntarily test and certify its CO 
alarms to the UL 2034 standard. While most states with laws requiring 
residential CO alarms mandate that they meet UL 2034, there is no 
uniform requirement. To date, 23 states have enacted laws requiring CO 
alarms in residential dwellings, and more states are likely to adopt 
similar legislation in the coming years. In order to avoid confusion 
among regulators, consumers, and the industry, state lawmakers need a 
consistent standard to define what constitutes an ``approved'' alarm. 
Without such a reference, conflicting regulations may arise, which 
would run directly counter to one of the CPSC's guiding objectives ``to 
develop uniform safety standards for consumer products and to minimize 
conflicting state and local regulations.'' By setting a mandatory 
Consumer Product Safety Standard, the Federal Government would provide 
an umbrella of protection for all consumers in the U.S.
    In closing, each week we hear of families whose lives have been 
saved through the use of CO alarms. Having a CO alarm does make the 
difference between life and death. Consumers must have confidence that 
their CO alarm will work reliably and accurately. A Federal standard 
would give consumers that peace of mind
    Again, I thank Committee members for their thoughtful consideration 
of S. 1216, and for raising awareness about CO dangers in the home. 
Senator Klobuchar and Senator Nelson, we look forward to working with 
you to pass this important legislation expeditiously. Thank you again 
for the opportunity to contribute to this discussion, and I will be 
glad to answer any questions.

    Senator Pryor. Thank you.
    Mr. Cochran.

  STATEMENT OF HON. KELVIN J. COCHRAN, ADMINISTRATOR, UNITED 
              STATES FIRE ADMINISTRATION, FEDERAL 
  EMERGENCY MANAGEMENT AGENCY, DEPARTMENT OF HOMELAND SECURITY

    Mr. Cochran. Mr. Chairman, Senator Klobuchar, other members 
of the Committee, again, I'm Kelvin Cochran, Associate 
Administrator for the Federal Emergency Management Agency, 
United States Fire Administrator of the Department of Homeland 
Security.
    I appreciate the opportunity to participate today in this 
discussion. And since this is my first hearing following my 
confirmation, it's a great opportunity to participate in this 
important issue. And I look forward to working with you on many 
other life safety and fire prevention initiatives over the next 
3 years.
    Each year, carbon monoxide poisoning kills or sickens 
thousands of Americans. This colorless, odorless gas adheres to 
red blood cells considerably faster than oxygen, which 
interrupts the exchange of oxygen. Consequently, the loss of 
oxygen in the body leads to tissue damage, and in some cases, 
death.
    From 1999 to 2004, approximately 450 Americans died from 
unintentional carbon monoxide poisoning. On an annual basis, 
approximately 20,000 people visit emergency rooms, and more 
than 4,000 are hospitalized due to carbon monoxide poisoning. 
Approximately 73 percent of those exposures occur in homes, 41 
percent occur during the winter months, between December and 
February. Carbon monoxide poisoning is most fatal for citizens 
above the age of 65.
    Common causes or sources of carbon monoxide poisoning 
include house fires, faulty furnaces, heaters, wood burning 
stoves, internal combustion vehicle exhaust, electrical 
generators, propane-fueled equipment, such as portable stoves, 
and gasoline powered equipment, such as lawn mowers.
    The fire and emergency services of the United States of 
America have been aware of this ``silent killer'' for many, 
many years, and have been trained on how to respond to and 
mitigate suspected cases of carbon monoxide poisoning. 
Municipal fire departments across the country respond to an 
estimated 60,000 nonfire carbon-monoxide incidents on an annual 
basis.
    Individuals and families can take proactive steps to reduce 
the risk of carbon monoxide poisoning by installing home carbon 
monoxide detectors. Carbon monoxide detectors provide a crucial 
early warning of elevated levels of carbon monoxide. The United 
States Fire Administration believes citizens will be best 
prepared for an emergency in their homes if they install both 
smoke alarms and carbon monoxide detectors during this critical 
period of the year.
    We have produced fact sheets and other information, in 
conjunction with the Department of Housing and Urban 
Development and the National Institute of Standards and 
Technology, entitled ``Smoke and Carbon Monoxide Alarms for 
Manufactured Homes.'' This fact sheet and other materials 
referenced here today can be accessed on the United States Fire 
Administration's website at www.usfa.dhs.gov.
    Americans can also do more to reduce the risk of carbon 
monoxide poisoning. Homeowners should regularly check and vent 
their homes' heating systems, regularly clean their chimneys, 
and never leave vehicles running in a closed garage. These are 
other simple steps that can assure that carbon monoxide levels 
do not rise to dangerous levels within our homes.
    In recent years, the emergency management community has 
experienced--or expressed concerns regarding post-disaster 
deaths from carbon monoxide poisoning. Data has shown that, on 
average, 170 people die every year as a result of carbon 
monoxide poisoning associated with portable gas generators. 
Such post-disaster deaths are also caused by charcoal grills 
used inside of homes or enclosed garages during power outages.
    Research from the Center for Hyperbaric Medicine at the 
Virginia Mason Medical Center in Seattle, Washington, shows the 
number of carbon monoxide poisoning deaths or--in emergency 
rooms spike 2 to 3 days following power outages, as survivors 
begin to recover.
    The United States Fire Administration has developed many 
brochures with guidance on the proper use of generators 
following disasters, so survivors who operate these machines 
can do so safely. The Federal Emergency Management Agency's 
Administrator has directed the United States Fire 
Administration to look at how we can better prepare and respond 
to power outages in order to educate survivors and prevent 
these tragedies from occurring.
    Finally, the United States Fire Administration will be 
working closely with the Centers for Disease Control and 
Prevention to distribute multilanguage brochures and develop 
public service announcements to better prepare citizens prior 
to disasters. We're also highlighting carbon monoxide poisoning 
in our monthly public education series. For January 2010, the 
``Focus of the Month'' will be ``Alternative Heating Sources,'' 
which focuses on the dangers of carbon monoxide.
    I appreciate the opportunity to present before you today, 
and look forward to working with you on this and other critical 
life safety and fire prevention initiatives.
    [The prepared statement of Mr. Cochran follows:]

  Prepared Statement of Hon. Kelvin J. Cochran, Administrator, United 
   States Fire Administration, Federal Emergency Management Agency, 
                    Department of Homeland Security
    Good afternoon, Mr. Chairman, Ranking Member Wicker, and members of 
the Committee. My name is Kelvin J. Cochran and I am an Associate 
Administrator at the Federal Emergency Management Agency (FEMA) in 
charge of the United States Fire Administration (USFA) at the 
Department of Homeland Security (DHS). I appreciate the opportunity to 
appear before you today to discuss the dangers of carbon monoxide 
poisoning.
    Each year carbon monoxide poisoning kills or sickens thousands of 
Americans. This colorless, odorless gas adheres to red blood cells 
considerably faster than oxygen, which interrupts oxygen exchange. The 
loss of oxygen in the body leads to tissue damage and, in some cases, 
death. Each year from 1999 to 2004, approximately 450 Americans died 
from unintentional carbon monoxide poisoning. Annually more than 20,000 
people visit emergency rooms and more than 4,000 are hospitalized due 
to carbon monoxide. Approximately 73 percent of these exposures occur 
in homes, and 41 percent occurred during winter months (December to 
February). Carbon monoxide poisoning is most fatal to those 65 or 
older.
    Sources of carbon monoxide include house fires, faulty furnaces, 
heaters, wood-burning stoves, internal combustion vehicle exhaust, 
electrical generators, propane-fueled equipment such as portable 
stoves, and gasoline-powered tools such as lawn mowers. The fire and 
emergency services in the United States have been aware of this silent 
killer for many years and have been trained on how to respond to 
suspected cases of carbon monoxide poisoning. Municipal fire 
departments respond to an estimated 60,000 non-fire carbon monoxide 
incidents annually.
    Individuals and families can take proactive steps to reduce the 
risk of carbon monoxide poisoning by installing home carbon monoxide 
detectors. Carbon monoxide detectors provide a crucial early warning of 
elevated levels of carbon monoxide.
    The USFA believes citizens will be best prepared for an emergency 
in their homes if they install both smoke and carbon monoxide 
detectors. We have produced a fact sheet in conjunction with the 
Department of Housing and Urban Development and the National Institute 
of Standards and Technology entitled, ``Smoke and Carbon Monoxide 
Alarms for Manufactured Homes.'' This fact sheet and other materials 
referenced here today can be accessed via the USFA website at 
www.usfa.dhs.gov.
    Americans can also do more to reduce the risk of carbon monoxide 
poisoning. Homeowners should regularly check and vent their home 
heating systems, regularly clean their chimneys, and never leave 
vehicles running in a closed garage. These and other simple steps can 
ensure that carbon monoxide levels do not rise to dangerous levels 
within their homes.
    In recent years the emergency management community has expressed 
concerns regarding post disaster deaths from carbon monoxide poisoning. 
Data has shown that on average 170 people die every year as a result of 
carbon monoxide poisoning associated with portable gas generators. Such 
post-disaster deaths are also caused by charcoal grills used inside the 
home or enclosed garages after power outages. Research by the Center 
for Hyperbaric Medicine at the Virginia Mason Medical Center in 
Seattle, Washington, shows the number of carbon monoxide poisoning 
deaths or emergency room admissions 2-3 days following a power outage 
spike as survivors begin to recover.
    The USFA has developed brochures with guidance on the proper use of 
generators following disasters so survivors who operate these machines 
do so safely. The FEMA Administrator has asked USFA to look at how we 
can better prepare and respond to power outages in order to educate 
disaster survivors and prevent these tragedies from occurring. USFA 
will be working closely with the Centers for Disease Control and 
Prevention to distribute multi-language brochures and to develop public 
service announcements to better prepare citizens prior to a disaster.
    We are also highlighting carbon monoxide poisoning in our January 
2010 ``Focus of the Month'' on alternative heating. Educating the 
public on the dangers of carbon monoxide poisoning has been a part of 
our ``Winter Fire Safety'' focus for many years and we will continue to 
warn the public of its danger.
    Thank you for the opportunity to appear before the Committee on 
this important issue, and I would be happy to answer any questions at 
this time.

    Senator Pryor. Thank you, Mr. Cochran.
    And I want to thank the entire panel for your testimony 
today. It's very helpful to the Subcommittee.
    Mr. Korn, let me start with you, if I may. And that is--you 
have a stack of carbon monoxide alarms there--detectors there. 
How can we do a better job--whether it's through the CPSC or 
some other outlet--how can we do a better job of getting the 
word out to people like Ms. Burt and her family on the 
importance of having carbon monoxide detecting in every home?
    Mr. Korn. Well, there are lots of different ways, two of 
which I'll mention. I think the Incentive Grant Program 
contained in Senator Klobuchar's bill will go a long way. One 
of the best motivators for families to behave properly--we see 
it in booster seats, we see it in pools, we see it in .08, open 
primary seat belt laws--is to pass the State law that requires 
them in the homes--and, I would suggest, Senator, all homes 
that have combustible fuel. So that's one. It seems like it 
gets the imprimatur of the government saying, ``Hey, I need to 
have this done,'' so there's compliance on the other side.
    And as to the Consumer Product Safety Commission, maybe 
it's time that they address this issue the same way they do 
fireworks or the same way they do toy safety, where there is 
one time a year, every year, maybe the start of home heating 
season, where they do the same type of education and 
partnership, with Safe Kids and other groups, about the 
importance of getting these detectors up in the homes, kind of 
address it in the same--with the same magnitude they do those 
couple of other areas. I would suggest they also do that for 
pool safety, and I think they're on their way to that.
    And then, finally, there's nothing for, at least me, more 
motivating than hearing stories. So, anytime a parent is 
willing to share their story about a child dying, and their 
experiences, it's--that's one of the best.
    And let me say this, I deal a lot with parents that lose 
children. And it is, in my view, the most selfless act for a 
parent like the--like Cheryl to share their story. There may be 
15 minutes in a day where she doesn't think about her two 
children, but when she volunteers herself to express and 
educate others, she's allowing all of us to intrude on that 15 
minutes, including this hearing. And I think that's a pretty 
special gift, and very selfless. So, as long as parents are 
willing to tell their stories, that's the best motivator.
    I have a 9-year-old. It's an unthinkable thought to lose a 
child. So, I'm going home tonight and checking my smoke alarms 
and carbon monoxide detectors, because of the story.
    Senator Pryor. I agree. Thank you, very much.
    Mr. Andres, let me ask you a question about Kidde and what, 
in your view and the company's view--what makes a--for a good 
carbon monoxide alarm, and, you know, what makes one better 
than others?
    Mr. Andres. Well, I'd start with what makes a good alarm. I 
mean, what you really want with an alarm is, you want 
selectivity to carbon monoxide gas only. You don't want an 
alarm that's going to react or sense other gases that are 
commonly found in a home, and you don't want that to be viewed 
by the alarm as carbon monoxide. So, selectivity just to carbon 
monoxide is an important attribute.
    Also, long-term stability. You know, if we think about what 
we're doing with a carbon monoxide alarm and the technology, 
we're trying to detect parts per million of a molecule that 
cannot be seen, smelled, or tasted. So, you know, long-term 
accuracy of the technology so that, over time, it's just as 
good on day one as it is, you know, on--in year 7, is an 
important attribute.
    I'd say, those are two aspects that I would look for in 
carbon monoxide alarming. And to help support that, there's a 
standard out there the UL ANSI-accredited standard, UL 2034, 
which really looks at these attributes, in addition to a whole 
bunch more, to make certain that those products that carry the 
UL mark meet these requirements.
    Senator Pryor. Yes. Thank you for mentioning the UL 2034, 
because in your opening statement you mentioned that it gets 
updated from time to time. Is the current status of UL 2034 
current with technology today? And basically--I mean, is it 
ready to be followed for a long time, or does it need to--some 
improvement, as well?
    Mr. Andres. Yes, it has--I mean, since it was first 
published in 1992, it's gone through a number of revisions. A 
lot of those revisions made good sense. Revisions, for example, 
to incorporate tests to avoid nuisance alarms. Revisions to the 
standard to prove long-term reliability and stability.
    Basically, any problems that the Standards Technical Panel 
came across, of which CPSC is a member of, those were addressed 
and the standard was modified to ensure that future designs 
didn't have similar issues. So, progressively getting better 
and better with time. And it's a very good standard at this 
point.
    Senator Pryor. And so, you think the standard, as it exists 
today, is right where it needs to be?
    Mr. Andres. Yes. Yes, I do.
    Senator Pryor. Senator Klobuchar.
    Senator Klobuchar. Well, thank you very much, Senator 
Pryor. I was looking at these and remembering that I go home by 
myself a lot on weekends, and I came in once and I think mine--
there was something wrong. It was just going off all the time, 
and I unplugged it. So, maybe I'll buy one of these from you. I 
can't take it, Mr. Andres so----
    Mr. Andres. OK.
    Senator Klobuchar.--you have to put a price on it.
    Mr. Andres. Yes.
    Senator Klobuchar. Or----
    Mr. Andres. Right.
    Senator Klobuchar.--we'll have had a public violation of 
the ethics law.
    [Laughter.]
    Senator Klobuchar. OK, very good.
    Well, I wanted to thank, again, all of you. And I--just to 
follow up on a few of Senator Pryor's questions about the 
standard and how it's improved over time. Is it difficult for 
manufacturers to meet the standard? And why do you think it's 
important to have a mandatory one instead of a voluntary one?
    Mr. Andres. Well, to answer the question, it is difficult 
to meet the standard. I mean, the UL standard incorporates over 
50 different performance tests. It's--it takes time. It's not 
inexpensive. But, at the end of the day, what we end up with, 
as an industry, is, you know, a product that's been designed to 
comply with the performance standard.
    And if we just think about not doing that for a moment, 
what we open ourselves up to is the risk of putting products 
into the marketplace, ultimately exposing ourselves, in the 
entire carbon monoxide alarm category, to consumers not having 
a belief in the way they would work, or should work. We don't 
want to do that. And we have an opportunity now, with S. 1216, 
to prevent that from happening, reduce the risk, build the 
consumers' confidence, and maintain the reputation of carbon 
monoxide alarms, in total.
    Senator Klobuchar. And then, did the smoke alarms have a 
similar mandatory standard that this bill would ask for, for 
carbon monoxide?
    Mr. Andres. Smoke alarms--there's a UL standard for smoke 
alarms. It's UL 217. I don't believe it's mandatory, but I 
believe most States do require smoke alarms be listed to the UL 
217 standard. It's a little bit different. You know, smoke 
alarms have been around for quite some time. And if you look at 
the history of smoke alarms, there were actually businesses 
that had put smoke alarms into the marketplace without a UL 
mark. Those businesses aren't around anymore. And I think what 
we have here is the opportunity to prevent that from 
reoccurring.
    Senator Klobuchar. And how much does one of these typically 
cost, a carbon monoxide alarm?
    Mr. Andres. I'd say the range is anywhere from $18 to $40, 
depending upon, you know, the feature set----
    Senator Klobuchar. And then you just----
    Mr. Andres.--that comes----
    Senator Klobuchar.--install it----
    Mr. Andres.--with it.
    Senator Klobuchar.--by plugging it in, is that right?
    Mr. Andres. Yes. They're--well, you see some of the 
examples that Mr. Korn has.
    Senator Klobuchar. Yes.
    Mr. Andres. Some are simple----
    Senator Klobuchar. Oh, that's who can I buy it from.
    [Laughter.]
    Mr. Andres.--installing batteries, just like in a remote 
control; and others, just directly plugging into a wall outlet. 
That's how simple it is.
    Senator Klobuchar. Mr. Korn, we talked about the fact that, 
I think its 23 states, including Minnesota, have laws on the 
books that require carbon monoxide alarms in the home. Can you 
talk about the effectiveness of these State laws? Is there any 
evidence of them reducing the carbon monoxide--or the number of 
times that they've effectively warned people of this ``silent 
killer''?
    Mr. Korn. Yes. There are 23 states that have carbon 
monoxide detector laws. But, you know, frankly, there's a 
patchwork of requirements. Some require--like Minnesota, Rhode 
Island, a few others--a very good carbon monoxide law that 
covers all dwellings. Others--I believe it's Maine; I'm doing 
it off the top my head, but I have the information--just 
hotels. Some just require a carbon monoxide alarm, only when 
there's a transfer of a home, during a sale or otherwise 
changing hands.
    In our view, a more comprehensive law is important. I think 
the laws of chemistry are--exist the same in a rental unit, 
with a combustible source of fuel, as they do in a home that's 
been around for 30 years. Carbon monoxide isn't any less 
poisonous just because it's in existing home or because it's in 
a new home or just because it's in a rental property.
    So, we would hope that your incentive grant, and also the 
State legislatures, would kind of pick up on this,--I think 
it's a fairly new risk area; people don't know about it--and 
pass the laws to require them in the homes.
    And I'll just mention, casually, that Arkansas does not 
have a carbon monoxide detection law, so maybe we can move 
toward that end.
    Senator Klobuchar. You know, Ms. Burt's tragic story really 
brought home the fact that kids are more vulnerable to this 
than adults, even. And adults obviously are, as well. But, 
could you talk about that, the body weight and the reasons 
that----
    Mr. Korn. Yes.
    Senator Klobuchar.--children are more vulnerable?
    Mr. Korn. Well, there are three or four different reasons, 
but one is, first, children are smaller. So, something that's 
particularly toxic getting into their bodies affects them 
negatively faster than it does for an adult, although, rest 
assured, at enough--or higher levels, it's going to affect even 
a large adult, also.
    And second, children don't have the ability to react like a 
parent would or an adult would. It is at least possible that a 
adult would recognize that something's wrong and maybe, maybe 
make a connection to carbon monoxide. A child won't. A child 
will fall asleep or go unconscious, and that's the end of it.
    So, I think children are a particularly vulnerable 
population, requiring that early detection just as much as, or 
if not more, than others. I think seniors, also, are the same 
case. In fact, many carbon monoxide poisoning and deaths happen 
to seniors, because they can't react to it as a healthy adult 
would.
    Senator Klobuchar. I think it was your testimony, Mr. 
Cochran, talking about when this--who's vulnerable, when this 
spikes. You noted that the number of emergency room admissions 
associated with carbon monoxide spike around 2 to 3 days after 
a power outage, meaning that people are using the portable gas 
generators and charcoal grills inside their homes after a 
hurricane or a storm. What's the best way, if you could just 
use your expertise here, to prevent injury and death associated 
with these generators?
    Mr. Cochran. Well, assuring that proper venting is taking 
place in homes and when garages are used to store heat from 
appliances that generate carbon monoxide, even making sure that 
venting is appropriate in those areas, as well, and just 
monitoring, having CO detectors available, so that, even if the 
venting is not adequate enough, that the carbon monoxide 
detector will sound, to alarm, to let them know that dangerous 
levels are present.
    Senator Klobuchar. And I noticed also you talked about how 
many of these are--OK, this may be a selfish question here, but 
everyone should know the answer--some of the State laws differ, 
as Mr. Korn discussed, but what is recommended? I think our 
law, in Minnesota, says the alarm should be installed within 10 
feet of every bedroom, and then some just say every floor. It--
I would assume it's recommended there be on--one on every 
floor, or--is that correct, or not?
    Mr. Cochran. One on every floor is pretty consistent. 
Beyond that, it's--usually boils down to different standards or 
family preferences. But, one on every floor is a consistent 
standard that we stand by.
    Senator Klobuchar. OK. Ms. Burt, I know that you have spent 
a lot of time reaching out to families about the dangers of 
carbon monoxide poisoning. Have you seen some change in 
people's knowledge, with these State laws passing over the last 
15 years, since the tragedy?
    Ms. Burt. I have, actually. When I first started doing 
this, and I was telling my story, or just telling friends and 
family or people I meet, a lot of people were just like, 
``Carbon monoxide, boy,'' you know, ``don't really know 
anything about that,'' or along those lines.
    And as the years went on, the more people I would talk to, 
they'd be like, ``Oh, yes, yes, yes. We know all about that. My 
Mom and Dad got us one for Christmas,'' or, you know, they knew 
a lot more. And it has been--over the years, it's prevalent 
that people do know about it.
    But, even after hearing my story, they still don't actually 
go out and purchase one and put it in and use it. And that's 
the part that gets me, is that--you know, it's great to know 
about it, but not everybody's taking the steps needed to 
protect themselves. And that's the part where this can come in 
handy.
    Senator Klobuchar. And another part of your story, that was 
just so--had just--sitting, as a mother, thinking about this--
is, you kept going back to the doctors and, you know, trying to 
figure out why you were all sick at the same time. Has there 
been some increase in that kind of training or education for 
doctors, EMTs, firefighters, emergency-room workers, people 
that would be asking the right questions to identify how this 
happened?
    Ms. Burt. There has been. I know that it--at the Mayo 
Clinic, I've talked with a panel of people on it. And it is 
more prevalent. It's something that--doctors do think about it. 
But--now, that's in my State, in one place. I don't know that 
all doctors would think ``carbon monoxide poisoning,'' at this 
point, when someone would present the way we were. Certainly 
more public awareness and--on it would address that and get it 
further promoted. I would like to see doctors think faster--
when someone's coming in constantly with the same type of 
symptoms, and they're just saying, ``Mmm. She's a kook, 
hypochondriac,'' you know, it's not--I'm not blaming the 
medical community, by any means, but I would want more 
knowledge out there so that that is foremost in their thought--
--
    Senator Klobuchar. Mr.----
    Ms. Burt.--or at least----
    Senator Klobuchar.--Cochran----
    Ms. Burt.--considered.
    Senator Klobuchar.--do you want to add to that at all?
    Mr. Cochran. Yes, ma'am. I can speak to the issue of 
training and preparedness for firefighters--especially those 
who are emergency medical technicians are extremely well aware 
and trained, this particular time of year, to focus on signs 
and symptoms, that may be presented by patients, that could 
result in carbon monoxide poisoning. In addition to that, this 
time of year, municipal fire departments, and volunteer 
agencies who have the resources, commonly partner with 
businesses and the media in their area to increase awareness of 
the potential for carbon monoxide poisoning, this time of year.
    There are departments, currently entering into campaigns 
across the nation, where carbon monoxide detectors are being 
purchased and donated by faith-based groups and businesses, and 
delivered to fire departments, who actually receive calls from 
citizens for requests for carbon monoxide detectors. And the 
firefighters themselves install the carbon monoxide detectors 
in the homes of citizens. That is a historical trend that's 
been occurring for approximately 10 to 15 years, and it's 
gaining momentum in communities all across the country.
    Senator Klobuchar. Thank you.
    I guess my last question, Ms. Burt, is--I would assume you 
would suggest people put a carbon monoxide alarm in their 
stockings this holiday season, and that this would be a good 
gift for people to give their family members.
    Ms. Burt. You are absolutely correct.
    Senator Klobuchar. All right. Thank you very much. And 
thank you for your courage in being here.
    And thank you, all of you. It was very informative.
    Senator Pryor. Yes, thank you all for being here.
    I have some written questions that we may submit. I think 
that Senator Klobuchar and I, we get it, and we're going to try 
to do something about this as quickly as we can.
    I didn't mention this before, Ms. Burt, but I had a 
circumstance in my house a few years ago, it didn't end in 
tragedy, like yours did, but it could have, because--I was just 
out of law school, and I had two roommates, and we lived in an 
older house--as Mr. Korn said, can be a problem--and one of my 
roommates, he--his bedroom was right--just a few feet down the 
hall from a bathroom, and it had a hot water heater in the 
bathroom. And the carbon monoxide was just leaking out of the 
hot water heater. We had no idea. You know, it had come with 
the house, and we didn't really think to check it or anything. 
But, sure enough, he's getting these flu-like symptoms, 
headaches, you know, the whole thing. And he figured it out. 
I'm not quite sure how he figured it out, but he knew something 
was wrong, and he figured it out. And, you know, we replaced 
the water heater, and installed it properly, with the right 
venting and everything.
    So, this can sneak up on you without anybody knowing. And 
it was a near miss in our case. And we need to do more, in 
terms of law, but also to bring awareness to this.
    So, I really thank you all for being here. We'll work with 
all of you, trying to get something passed next year. And we're 
out of time this year, as Amy knows, to try to----
    Senator Klobuchar. Oh----
    Senator Pryor.--get anything----
    Senator Klobuchar.--there's still another week left.
    [Laughter.]
    Senator Pryor. So, realistically, we're not going to be 
able to get it done in the next week.
    But, anyway, thank you all for being here. And I really 
appreciate all of you and your contributions that you're making 
into this. And we'll do our best. And we look forward to 
working with all of you.
    Thank you.
    And with that----
    Senator Klobuchar. Thank you.
    Senator Pryor.--the hearing is concluded.
    [Whereupon, at 3:28 p.m., the hearing was adjourned.]
                            A P P E N D I X

             Prepared Statement of The Home Safety Council
    Chairman Pryor, Ranking Member Wicker, and other members of the 
Committee, thank you for the opportunity to submit testimony on the 
dangers of carbon monoxide poisoning.
    I am Patricia Adkins, Chief Operating Officer and Director of 
Public Policy for the Home Safety Council which is located in 
Washington, D.C.
About the Home Safety Council
    The mission of the Home Safety Council (HSC) is to help prevent and 
reduce nearly 20,000 deaths and 21 million medical visits each year 
from such hazards as falls, poisonings, fires and burns, suffocation, 
and drowning. Through national programs, partnerships and support of 
volunteers, HSC educates people of all ages to help keep them safer in 
and around their homes. Our vision for our Nation is safer homes that 
provide the opportunity for all individuals to lead healthy, active, 
and fulfilling lives.
Carbon Monoxide Poisoning Is A Home Safety Issue
    Carbon monoxide poisoning is extremely serious. Carbon monoxide 
(CO) is known as ``the silent killer.'' You cannot see it, smell it or 
taste it. CO is a deadly gas that is produced by fuel-burning heating 
equipment, such as furnaces, wood stoves, fireplaces, and kerosene 
heaters.
    According to the U.S. Centers for Disease Control and Prevention, 
each year CO claims the lives of nearly 500 people in America and an 
additional 15,000 seek medical attention for accidental CO exposure. 
Seniors and young children are more at risk for CO poisonings because 
they spend most of their time at home. In addition, children metabolize 
the gas more quickly than adults and older adults do not excrete the 
gas as rapidly as young and middle-aged adults.
    The Home Safety Council's State of Home Safety in 
America<SUP>TM</SUP> revealed 67 percent of American households use 
fuel-burning appliances and equipment, such as gas, wood or kerosene 
that can emit dangerous levels of carbon monoxide if not functioning 
properly. Earlier this year, HSC and Kelton Research conducted a ``Home 
Safety for the Entire Family Survey.'' The survey polled 800 parents to 
better determine their level of awareness for the leading causes of 
home injury and also to gauge actions they had taken to reduce the risk 
of home injuries. Our survey showed that nearly half (49 percent) of 
all caregivers polled have not installed a carbon monoxide alarm in 
their homes.
Preventing Carbon Monoxide Poisoning In Your Home
    CO poisonings are largely preventable and each year, HSC and other 
dedicated organizations conduct education campaigns to reach Americans 
to teach them ways to prevent CO poisonings in their homes. HSC 
believes that there are some simple steps each family can take to help 
reduce the risk of CO poisoning in their homes. They are:

  <bullet> Install at least one CO alarm near sleeping areas;

  <bullet> Have a trained professional inspect, clean and tune-up your 
        home's central heating system and repair leaks or other 
        problems. Fireplaces and woodstoves should also be inspected 
        each year and cleaned or repaired as needed;

  <bullet> Keep gas appliances properly adjusted and serviced;

  <bullet> Never use an oven or range to heat your home;

  <bullet> Never use a gas or charcoal grill inside your home or in a 
        closed garage; and

  <bullet> Portable electric generators must be used outside only. 
        Never use them indoors, in a garage or in any confined area 
        that can allow CO to collect. Follow usage directions closely.

    HSC believes that legislation like S. 1216: the Residential Carbon 
Monoxide Poisoning Prevention Act provides important mandatory 
standards for residential homes and other dwellings. It is important 
that Americans can trust in an alarm's ability to detect carbon 
monoxide in their homes. Also, this legislation authorizes the Consumer 
Product Safety Commission to establish a grant program for eligible 
states to carry out a carbon monoxide safety program. We are delighted 
that national non-profit organizations such as the Home Safety Council 
and others would be eligible to participate in multi-state programs 
that work with first responders to educate and provide families with 
carbon monoxide materials and alarms.
Carbon Monoxide Prevention
    Each year, at the beginning of home heating season, the HSC works 
with businesses, first responders and other organizations in an effort 
to remind all families of the dangers of CO poisoning. HSC's online 
virtual home safety tour, MySafeHome.org provides graphic illustrations 
of CO sources and how to minimize the poisoning risk.
    On behalf of the Home Safety Council, thank you for the opportunity 
to share our findings and support for meaningful standards and programs 
that resonate with all Americans to reduce the number of unintentional 
carbon monoxide poisonings and deaths in the United States.
                                 ______
                                 
                                                  December 17, 2009
Hon. Mark Pryor,
Chairman,
Subcommittee on Consumer Protection, Product Safety, and Insurance,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Hon. Roger Wicker,
Ranking Member,
Subcommittee on Consumer Protection, Product Safety, and Insurance,
Senate Committee on Commerce, Science, and Transportation,
Washington, DC.

Dear Chairman Pryor and Ranking Member Wicker:

    As representatives of manufacturers, service providers, and 
installers of carbon monoxide alarm and detection devices, we want to 
commend you for holding today's hearing on ``Carbon Monoxide Poisoning: 
Sounding the Alarm on a Silent Killer.''
    Carbon monoxide (CO) poisoning is the leading cause of accidental 
poisoning death in the United States. High concentrations of carbon 
monoxide--a colorless, odorless gas that is produced when fossil fuel 
is incompletely burned--can cause cognitive impairment, loss of 
consciousness, coma and often death. In fact, the U.S. Centers for 
Disease Control and Prevention reports that every year, more than 400 
people die in the U.S. from accidental CO poisoning and estimates that 
approximately 20,000 Americans seek medical attention every year due to 
carbon monoxide.
    There are many things American families can do to protect 
themselves from carbon monoxide poisoning, including properly 
maintaining fuel-burning appliances, furnaces and chimneys and 
correctly using portable generators. These actions can help prevent the 
buildup of toxic carbon monoxide gas in people's homes. However, once 
CO is present, timely detection is paramount to ensuring residents have 
the time to evacuate from the home and contact emergency personnel. 
Carbon monoxide detection and notification devices installed in 
residential and other places where people sleep provide an effective 
way to reduce the incidence of CO poisoning.
    We support the goals of S. 1216, the Residential Carbon Monoxide 
Poisoning Prevention Act, introduced by Senators Amy Klobuchar and Bill 
Nelson. S. 1216 acknowledges the value of carbon monoxide alarm and 
detection devices by promoting their purchase and installation in 
residential homes and dwellings nationwide. By requiring the U.S. 
Consumer Product Safety Commission (CPSC) to adopt the American 
National Standards Institute/Underwriters Laboratories (ANSI/UL) 
Standard 2034, Standard for Single and Multiple Station Carbon Monoxide 
Alarms, as a mandatory consumer product safety rule, the bill places 
importance on continued quality, effective devices that meet rigorous 
safety standards.
    We are also pleased that S. 1216 encourages states to require 
residential CO detection devices and establishes a Federal grants 
program to provide assistance to eligible states to carry out a CO 
alarm program. Currently, over two dozen states and many local 
jurisdictions have laws on the books requiring CO devices in homes, 
commercial lodging, and other dwellings, and those laws are proving 
successful in reducing the incidence of CO poisoning.
    S. 1216 is a good bill that calls attention to an important life 
safety issue and promotes the use of quality, effective CO detection 
and notification devices. While we support the goals of S. 1216, there 
are some technical corrections needed to ensure technological 
consistency. We look forward to working with Senators Klobuchar and 
Nelson and members of the Subcommittee to address these issues and 
concerns as the bill advances.
    Thankfully, there are ways to protect against the deadly assassin 
known as carbon monoxide. We appreciate your Subcommittee's attention 
to this life-and-death issue and to ``sounding the alarm on a silent 
killer.'' We stand ready to work with you.
            Sincerely yours,
                         Evan R. Gaddis, President and CEO,
                         National Electrical Manufacturers Association.

                 Richard W. Chace, Chief Executive Officer,
                                         Security Industry Association.

                              Michael A. Miller, President,
                                       Electronic Security Association.
cc: Hon. Amy Klobuchar, U.S. Senate
    Hon. Bill Nelson, U.S. Senate
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                               Alan Korn
    Question 1. If a consumer sustains a carbon monoxide poisoning, 
does permanent injury result?
    Answer. The treatment for a CO poisoning is oxygen therapy to treat 
symptoms and to lower carbon monoxide levels in the blood or the use of 
a full-body hyperbaric chamber that applies air pressure to remove the 
carbon monoxide faster. For those who survive a carbon monoxide 
poisoning, the long-term effects can be severe in some cases. Victims 
have reported memory loss, impaired motor skills and heart and lung 
problems. Often times, they deal with the CO injury for the rest of 
their lives.

    Question 2. Is the carbon monoxide poisoning data we have 
comprehensive in your view? If not, why?
    Answer. Safe Kids USA believes that the carbon monoxide poisoning 
data is not truly comprehensive due to the nature of CO itself. CO, a 
colorless and odorless gas, is responsible for more than 500 
unintentional deaths, approximately 20,000 emergency department visits 
and more than 4,000 hospitalizations each year in the United States. 
However, because symptoms of CO poisoning are similar to the flu, food 
poisonings and other common ailments, it is possible that many deaths 
have not been classified as CO poisoning and as a result, the number of 
fatalities, injuries and hospitalizations could be much higher than 
reported.
    Although the situation is getting better, front line medical 
professionals (emergency room doctors and nurses) and pediatricians 
still misdiagnosis CO poisonings. The Burt family is a perfect example. 
Instead of properly spotting the signs of CO poisoning, medical 
professionals often discharge the patient right back into the toxic 
environment that sickened them in the first place. Not only is this 
dangerous but we lose these incidents as data points forever. Better 
medical recognition will greatly assist to make data more 
comprehensive.

    Question 3. Could you explain to the Committee why children are 
more vulnerable to the effects of carbon monoxide poisoning than adults 
are?
    Answer. Young children are especially vulnerable to the effects of 
CO. Due to their smaller bodies, children process CO differently than 
adults and may be more severely affected by carbon monoxide in their 
blood. They are more susceptible to carbon monoxide and may experience 
symptoms sooner than a healthy adult.
    Additionally, younger children do not have the cognitive ability to 
recognize the characteristics of CO poisoning, nor do they have the 
advanced physical development to react properly to it. Accordingly, 
their exposure to the poison can be prolonged and therefore the injury 
can be more severe. Their enhanced vulnerability makes detection, 
through a CO alarm, all the more important.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                               Alan Korn
    Question 1. The New Mexico Department of Health reports that 
minority populations are more likely to suffer carbon monoxide 
poisonings than the general U.S. population. A Washington State study 
found that Hispanic populations have a three times greater risk for 
carbon monoxide poisoning. The study noted that indoor burning of 
charcoal briquettes causes 67 percent of Hispanic carbon monoxide 
poisonings. Why are minority and especially Hispanic populations at 
greater risk?
    Answer. Minority populations can be at greater risk for CO 
poisoning due to economic factors. The use of CO alarms, which are 
single-handedly the best safeguard against a poisoning, can be a 
financial obstacle for certain groups. Safe Kids has seen this economic 
barrier for other safety devices, such as child safety seats and bike 
helmets. In addition, malfunctioning gas appliances are a major source 
of a CO leak and maintenance of these products may also be a 
contributing factor to a carbon monoxide poisoning. Minorities and at-
risk families may not simply have the economic resources to properly 
maintain their gas appliances.

    Question 1a. How can we reverse this alarming trend?
    Answer. With minority populations being at a particular risk for 
carbon monoxide poisoning, it is important for public education efforts 
to be targeted to those in need. Safe Kids, as well other public health 
organizations, can focus outreach initiatives--including distribution 
of CO alarms--to minority and other at-risk groups to mitigate the risk 
of CO poisoning in these communities. The Federal Government, and in 
particular, the U.S. Consumer Product Safety Commission and the Centers 
for Disease Control and Prevention, could also conduct annual public 
education campaigns to address this disparity in CO poisoning rates.

    Question 2. In New Mexico, most carbon monoxide poisonings seem to 
occur in the winter months. Tragic cases from Washington State, 
Minnesota, and Florida also suggest that carbon monoxide poisonings 
spike after hurricanes or severe storms when people are without power 
or heating. In these cases, using portable generators or burning 
charcoal briquette fires indoors creates a real danger. Given the often 
seasonal nature of carbon monoxide poisoning, is there a more effective 
way to conduct public awareness campaigns for times when people are 
most vulnerable?
    Answer. The seasonal nature of carbon monoxide poisoning may 
necessitate that multiple public awareness campaigns are warranted--
before hurricane season as a preventive measure as well as when severe 
storms strike. At the time when a storm hits, it is not too late to 
remind the public about the dangers of CO poisoning and using portable 
generators or burning charcoal briquettes. The Federal Government and 
public education organizations may want to consider partnering with the 
American Red Cross on including CO poisoning prevention messages, as 
part of their disaster response protocol, when there are severe weather 
incidents.

    Question 2a. How could the ``National Carbon Monoxide Awareness 
Week'' in October include more effective safety campaigns to get more 
people to install carbon monoxide alarms in their homes?
    Answer. The use of carbon monoxide alarms is the best way to detect 
a CO poisoning in the home. Unfortunately we know that people still do 
not have this important safety device. National Carbon Monoxide 
Awareness Week as well as other public education initiatives throughout 
the year could include increased CO alarm distribution as part of their 
efforts. With today's economy, families have had to prioritize their 
household budgets, and safety devices may not be seen as ``must 
purchase'' items. Increased availability of no-cost CO alarms will help 
families install these devices in their residences.
    As we have seen with other safety efforts, the passage of state 
laws can be helpful to ensuring that more people install CO alarms in 
their homes. Currently, 23 states and some local jurisdictions have 
passed legislation requiring the use of CO alarms in some types of 
residences (Alaska, Colorado, Connecticut, Florida, Georgia, Illinois, 
Maine, Maryland, Massachusetts, Michigan, Minnesota, Montana, New 
Hampshire, New Jersey, New York, North Carolina, Oregon, Rhode Island, 
Utah, Vermont, Washington, West Virginia and Wisconsin). An advocacy 
effort to encourage more states to pass laws as well as public 
education activities to promote awareness of existing laws could 
promote CO alarm use.
    We note that significantly, New Mexico, to date, does not have a CO 
alarm law. Passing a law in New Mexico would not only increase use 
rates and lower deaths and injuries, but also could qualify the state 
for an incentive grant under the Residential Carbon Monoxide Poisoning 
Prevention Act, if enacted.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                              Cheryl Burt
    Question 1. What is your recommendation to the Congress to better 
protect Americans from the risk of carbon monoxide exposure or 
poisoning?
    Answer. My recommendation is that Congress pass S. 1216, and work 
to educate families on the risks of CO and the need for alarms in our 
homes. Carbon Monoxide is all around us every day. We need to educate 
the public regarding the dangers of CO and help them realize the need 
for CO alarms much like this needed to be done when smoke alarms first 
came out. They are as important, if not more so, because CO is a 
colorless, odorless, and tasteless gas and can usually only be detected 
by a CO Alarm. Knowledge is power. We warn about all sorts of health 
and safety issues: the flu, H1N1, proper seatbelt usage, what to do if 
you have a fire in your home, and other dangers. But there is no 
national awareness about CO poisoning and yet it is the leading cause 
of accidental poisoning in our homes.

    Question 2. You mentioned in your written testimony that when you 
were being exposed to carbon monoxide, you thought you simply had a 
case of the flu. How do you suggest we make Americans more aware of the 
possibility of carbon monoxide poisoning in the event that they 
experienced flu-like symptoms in their homes?
    Answer. I would like to see the grants incentive portion of this 
bill include an education outreach program that addresses overall CO 
awareness, and seasonal issues, such as heating risks. States that pass 
laws requiring CO alarms also need to educate families on the symptoms, 
the possible sources, etc. I wish with all my heart that my state would 
have had a law in 1996 like the one we have now, requiring all homes to 
have a CO alarm. I know without a doubt that I would have had one in my 
home. Had there been more public education at that time, I would have 
bought the alarm instead of that toy truck, and my sons would be alive 
today.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Mark Pryor to 
                              John Andres
    Question 1. Do you think it will be important to update the UL 2034 
standard over time?
    Answer. Yes. UL 2034 is currently reviewed by a standards technical 
panel in order to keep pace with technological advances and past 
lessons learned. The process of revising and updating occurs with input 
from users of the device, industry generals which often includes CPSC, 
Underwriters laboratories and the industries technical community. The 
process considering changes and new requirements is governed by the 
protocol used for all American National Standards Institute (ANSI) 
standards.

    Question 2. Do you recommend a national standard for carbon 
monoxide detection?
    Answer. Yes. Consumers must have confidence that their CO alarm 
will work reliably and accurately. A national standard of product 
performance such as the ANSI UL2034 ensures all critical performance 
attributes are independently evaluated by a third party. Furthermore, a 
national standard ensures that all legislation and code for CO alarms 
is easily administered by referencing this requirement. Conversely, the 
lack of such a standard will result in fragmented performance 
requirements that open the door to products that may not contain the 
necessary features and safety requisites determined to be necessary by 
the medical and technical community. The results of a fragmented 
performance requirement increases the risk of diminished performance 
which would no doubt have further ramifications such as the public 
losing confidence in CO alarms. Designing to a national standard 
substantially minimizes this risk.

    Question 3. What are the benefits to consumers and businesses of 
the CPSC endorsing or requiring a particular standard for carbon 
monoxide alarms?
    Answer. By endorsing or requiring a Federal standard for CO alarms, 
the CPSC provides consumers with the benefit of knowing that the 
product purchased is accurate and reliable, and that it has been tested 
by an independent, third party. In addition, businesses and state 
legislators involved with maintenance and ordinances, would benefit by 
having a very clear definition of what constitutes an approved CO 
alarm. This is consistent with the CPSC view of smoke alarms which is 
closely related to CO alarms.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Mark Pryor to 
                         Hon. Kelvin J. Cochran
    Question. How effective have fire alarms been in protecting 
Americans from death or injury associated with residential fires? Do 
you support the deployment of carbon monoxide detectors and alarms 
across the United States?
    Answer. Home smoke alarms have been one of the most effective 
safety innovations in recent history. While we have no hard data to 
substantiate the number of lives saved or injuries prevented by home 
smoke alarms, we know with certainty that the home fire death rate has 
declined substantially as the number of homes with working smoke alarms 
increases. For instance, in 1977, when 22 percent of homes had smoke 
alarms, there were 5,865 home fire deaths. By the year 2003, 95+ 
percent of homes had smoke alarms, and the trend in the death toll 
declined by 51 percent to 3,145.
    The United States Fire Administration (USFA) supports and 
recommends the use of carbon monoxide alarms in any building where a 
fuel is burned to provide heat for cooking or heating, lighting or any 
other purpose, as well as in all buildings that have an attached garage 
or shed.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                         Hon. Kelvin J. Cochran
    Question 1. The New Mexico Department of Health reports that 
minority populations are more likely to suffer carbon monoxide 
poisonings than the general U.S. population. A Washington State study 
found that Hispanic populations have a three times greater risk for 
carbon monoxide poisoning. The study noted that indoor burning of 
charcoal briquettes causes 67 percent of Hispanic carbon monoxide 
poisonings. Why are minority and especially Hispanic populations at 
greater risk? How can we reverse this alarming trend?
    Answer. The USFA, in conjunction with the CDC, is looking into why 
certain ethnic groups are more prone to accidental carbon monoxide 
poisoning. Unfortunately not all cases of carbon monoxide poisoning are 
reported to local fire departments. These cases are usually handled via 
the victims taking themselves to hospitals, or being delivered to by 
friends and family for reasons other than carbon monoxide poisoning 
(i.e., flu-like symptoms).
    Public information and education that goes directly to the ``at 
risk'' population is always helpful in reducing specific safety 
problems. The USFA partners with national organizations to reach 
identified high risk audiences by making use of the partner 
organization's established networks and thereby reaching out to 
community groups that can deliver the message directly to the local 
population.

    Question 2. In New Mexico, most carbon monoxide poisonings seem to 
occur in the winter months. Tragic cases from Washington State, 
Minnesota, and Florida also suggest that carbon monoxide poisonings 
spike after hurricanes or severe storms when people are without power 
or heating. In these cases, using portable generators or burning 
charcoal briquette fires indoors creates a real danger. Given the often 
seasonal nature of carbon monoxide poisoning, is there a more effective 
way to conduct public awareness campaigns for times when people are 
most vulnerable? How could the ``National Carbon Monoxide Awareness 
Week'' in October include more effective safety campaigns to get more 
people to install carbon monoxide alarms in their homes?
    Answer. FEMA/USFA has developed and made available a series of fact 
sheets that are employed during seasons when hurricanes, flooding, 
tornadoes, and winter storms, etc., usually peak. This includes two 
fact sheets that provide safety information about carbon monoxide in 
general and specifically about generators and carbon monoxide dangers. 
The fact sheets can be accessed online at www.usfa.dhs.gov/citizens. 
These fact sheets discuss fire safety and prevention under adverse 
conditions and are used to remind the public that fire safety and 
prevention are especially important during times of severe conditions.
    The January 2010 USFA ``Focus of the Month'' spotlights alternative 
heating safety. The dangers of carbon monoxide poisoning are key to 
this message and it provides basic safety information on how to avoid 
it.
    For the first time, in January 2009, the National Fire Protection 
Association (NFPA), Underwriters Laboratory and Kidde Fire Systems 
sponsored a Carbon Monoxide Awareness week. There may be other events 
sponsored by other agencies or organizations that focus on this 
problem. Certainly the more educated the public becomes the greater the 
chances are that some of the deaths and injuries can be prevented. 
Ongoing messaging about the dangers of carbon monoxide poisoning and 
how to prevent it would begin to bring the issue to the forefront of 
the public's mind. Since indoor cooking on grills, generators, and 
heating appliances that use natural fuel and auto emissions are some of 
the main causes of residential carbon monoxide poisoning, making use of 
public service announcements (radio, TV, and print) as well as 
editorials and articles in newspapers and magazines should gradually 
alert the general public to safety precautions they need to employ to 
prevent this problem.

                                  <all>

</pre></body></html>
